TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                The Administration of
                         Recruitment and Retention Incentives
                         Has Improved, but Additional Actions
                                  Should Be Taken



                                           September 19, 2011

                                 Reference Number: 2011-10-107




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.



Redaction Legend:
3(d) = Identifying Information of an individual or individuals




Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


THE ADMINISTRATION OF                                   recruitment and retention incentives. However,
RECRUITMENT AND RETENTION                               procedures were not adequate to ensure that all
INCENTIVES HAS IMPROVED, BUT                            Federal and internal guidelines were met
ADDITIONAL ACTIONS SHOULD BE                            (e.g., requiring documentation to justify the
                                                        appropriateness of the incentive). Because
TAKEN
                                                        IRS management relied on manual controls and
                                                        did not always review incentives to ensure
Highlights                                              compliance with legal requirements until after
                                                        the incentives were approved, TIGTA found that
                                                        some controls were bypassed or not followed.
Final Report issued on                                  This resulted in some recruitment and retention
September 19, 2011                                      incentives not being processed in accordance
                                                        with IRS guidelines between January 2006 and
Highlights of Reference Number: 2011-10-107             February 2010. For example, seven
to the Internal Revenue Service Human Capital           (25.9 percent) of the 27 retention incentives
Officer.                                                reviewed did not contain adequate
                                                        documentation to support that employees would
IMPACT ON TAXPAYERS
                                                        likely leave the IRS in the absence of the
To assist in its workforce planning efforts, the        incentive, which presents a risk that the
Internal Revenue Service (IRS), like other              incentives may not have been justified.
Federal agencies, has the flexibility to use
                                                        In addition, IRS management has not identified
payment compensation in the form of
                                                        a method to assess the impact of the use of
recruitment and retention incentives to attract
                                                        incentives on overall workforce planning goals.
and retain a high-quality workforce. Specifically,
                                                        Without this assessment, the IRS may not
the IRS can offer recruitment incentives to
                                                        ensure incentives are used to help achieve
attract new employees for positions that are
                                                        workforce planning goals of having the right
difficult to fill, and retention incentives to retain
                                                        people, in the right place, at the right time.
employees with unusually high or unique
qualifications. Since Fiscal Year 2008,                 WHAT TIGTA RECOMMENDED
IRS management improved their administration
of the use of recruitment and retention                 TIGTA recommended that the Director,
incentives; however, procedures were not                Workforce Progression and Management
adequate to ensure all Federal and internal             Division, strengthen manual controls to ensure
guidelines were met. Further improvements will          that Federal and internal guidelines are met, and
provide assurance that the IRS uses recruitment         that the IRS Human Capital Officer develop a
and retention incentives effectively and only in        methodology to assess the impact of the use of
circumstances where they are needed, which              recruitment and retention incentives in helping
would prevent a potential waste of Government           IRS management meet long-term workforce
funds.                                                  planning goals.

WHY TIGTA DID THE AUDIT                                 In its response, the IRS agreed with the
                                                        recommendations. The Director, Workforce
The overall objective of this audit was to              Progression and Management Division, has
determine whether the IRS properly administers          strengthened the approval and recertification
recruitment and retention incentives to hire            process and plans to revise incentive request
qualified employees for hard-to-fill positions and      forms, require approval when the number of
retain employees with unusually high or unique          incentives is increased, and develop a
qualifications.                                         methodology to assess the IRS incentive
                                                        program in meeting long-term workforce goals.
WHAT TIGTA FOUND
Since Fiscal Year 2008, IRS management
improved their administration of the use of
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 19, 2011


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Administration of Recruitment and Retention
                              Incentives Has Improved, but Additional Actions Should Be Taken
                              (Audit # 201110019)

 This report presents the results of our review to determine whether the Internal Revenue Service
 properly administers recruitment and retention incentives to hire qualified employees for
 hard-to-fill positions and retain employees with unusually high or unique qualifications. This
 review is included in our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                      The Administration of Recruitment and Retention Incentives Has
                            Improved, but Additional Actions Should Be Taken




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Improvements Have Been Made to the Administration
          of Recruitment and Retention Incentives ...................................................... Page 6
          Manual Controls to Administer Recruitment and
          Retention Incentives Did Not Always Work As Intended ............................ Page 8
                     Recommendations 1 through 4:......................................... Page 12

          The Use of Recruitment and Retention Incentives
          Should Be Fully Incorporated Into Strategic Workforce
          Planning ........................................................................................................ Page 13
                     Recommendation 5:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Recruitment and Retention Incentives Guidelines ............... Page 20
          Appendix V – Management’s Response to the Draft Report………………Page 26
      The Administration of Recruitment and Retention Incentives Has
            Improved, but Additional Actions Should Be Taken




                      Abbreviations

HCO             Human Capital Office
IRS             Internal Revenue Service
SES             Senior Executive Service
                   The Administration of Recruitment and Retention Incentives Has
                         Improved, but Additional Actions Should Be Taken




                                             Background

The Internal Revenue Service (IRS), like many Federal agencies, is faced with the major human
capital1 challenge of replacing a large number of its approximately 100,000 employees with
unique skills and institutional knowledge who are expected to retire or leave for other jobs over
the next several years. Effective strategic workforce planning and succession planning2 are
needed to strategically manage human capital resources through this challenging time. As
experienced IRS employees leave or retire from the Federal Government, successful succession
planning is critical to ensure that future employees have the skills and knowledge needed in
order to provide America’s taxpayers top quality service by helping them understand and meet
their tax responsibilities and enforce the law with integrity and fairness to all.
To assist in its succession planning efforts, the IRS, like other Federal agencies, has the
flexibility to use payment compensation in the form of recruitment and retention incentives3 to
attract and retain a high-quality workforce. Incentive amounts can be paid to employees in a
lump sum or in installments. For recruitment incentives, the employee must sign a written
service agreement to complete a specified period of employment with the IRS at the designated
duty location. The IRS does not require service agreements for retention incentives when
payments are made in biweekly installments. See Appendix IV for specific recruitment and
retention incentives guidelines.
    •    Recruitment incentives are used to attract new employees for positions that are difficult
         to fill in the absence of the incentive. Recruitment incentives can be used to offset higher
         starting salaries offered by the private sector, especially in mission critical4 positions such
         as revenue agent5 positions, where the rate of college graduates majoring in accounting
         may not match the IRS needs in certain geographic locations. IRS policy provides that
         recruitment incentives can be awarded in the amount of $5,000 for lower grade
         employees and up to 25 percent of the annual salary amount for higher grade employees
         and executive managers.

1
  Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
2
  Succession planning is intended to ensure that employees are recruited and developed to fill key roles as needed
within an organization, whenever the need arises.
3
  The use of recruitment, relocation, and retention incentives is provided by the Federal Workforce Flexibility Act of
2004, Pub. L. No. 108-411, 118 Stat. 2305 (Oct. 30, 2004); 5 U.S.C. §§ 5753 and 5754. This audit focused on the
IRS’s use of recruitment and retention incentives.
4
  Mission critical occupations are those few occupations that comprise the unique core competencies of the IRS
and/or have the greatest direct impact on the agency’s ability to meet its mission.
5
  A revenue agent is an IRS employee who conducts examinations of individuals, small businesses, corporations,
partnerships, tax-exempt entities, and/or government entities, using accounting, auditing, and investigative skills to
determine compliance with Federal income tax laws.
                                                                                                              Page 1
                 The Administration of Recruitment and Retention Incentives Has
                       Improved, but Additional Actions Should Be Taken



    •   Retention incentives are used when the unusually high or unique qualifications of a current
        employee, or a special need of the agency for the employee’s services, makes it essential to
        retain the employee, and the employee would be likely to leave the Federal Government in
        the absence of an incentive. For example, retention incentives can be used to retain
        retirement eligible employees with unique qualifications such as a statistician or Senior
        Executive Service6 (SES) manager when the IRS does not have replacement employees
        available and, if the employees retired, the ability of the IRS to meet its mission would be
        impaired. IRS policy provides that retention incentives can be awarded in an amount
        equivalent to 10 to 25 percent of an employee’s annual salary.
The Director, Office of Personnel Management, advised that these incentives should be used
with discretion and only when necessary to support the agency mission in difficult staffing
situations, and are not intended to be used in a manner to replace the Federal pay scale.
Recruitment and retention incentives are important to the IRS because more than one-half of the
approximately 100,000 employees and managers have reached age 50, and 39 percent of
IRS executives are already eligible for retirement. The IRS may face a knowledge gap if
departing highly qualified employees are not replaced by new hires, or if existing employees that
possess similar knowledge, skill, and abilities are not retained.
With the weakened American economy, emphasis has been placed on how Government agencies
are using taxpayers’ dollars. On April 20, 2009, the President asked each Federal agency to
ensure the Government is efficient and that taxpayer dollars
are spent wisely. In response, on May 27, 2009, the Director,
Office Personnel Management, required agencies to ensure           To ensure taxpayer dollars
                                                                      are spent wisely, the
that incentive payments are used only when necessary to           Director, Office of Personnel
support mission and program needs, and that they are              Management, requested that
consistent with the law and Office of Personnel Management         agencies ensure incentive
regulations. On July 10, 2009, the Director, Office Personnel       payments are used only
Management, requested that each agency review and update                when necessary.
its recruitment and retention plans, if necessary, and to certify
completion of the review by August 24, 2009.
The IRS Human Capital Office (HCO), Workforce
Progression and Management Division, Compensation and
Leave Branch (hereafter referred to as the Compensation
Branch) has overall responsibility for administering the
IRS recruitment and retention program. However,



6
 The SES is comprised of the men and women charged with leading the continuing transformation of the Federal
Government. These leaders possess well-honed executive skills and share a broad perspective of Government.
Members of the SES serve in the key positions just below the top Presidential appointees.
                                                                                                       Page 2
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken



IRS managers in the four business operating divisions7 and IRS HCO staff have responsibility for
initiating, reviewing, and approving incentives.
The IRS’s use of recruitment and retention incentives
has been minimal when compared to its approximately
100,000 employees and managers. Figure 1 shows the                         The average recruitment
number of employees receiving recruitment incentives                   incentive ranged from $2,600 to
and the dollar amount the IRS paid to hire SES and                        $10,000 per recruit and the
                                                                         average retention incentive
non-SES employees between Calendar Years 2005 and                       ranged from $8,000 to $27,000
2010.8 Numbers above each bar represent the number of                  per employee between Calendar
employees receiving the incentive. The amount of                            Years 2005 and 2010.
recruitment incentives averaged from a low of
approximately $2,600 in Calendar Year 2006 to a high
of $10,000 in Calendar Year 2005. Overall, incentives
increased because of an enforcement hiring initiative in
January 2009. However, the number of incentives
decreased in Calendar Year 2010 after the Office of
Personnel Management requested in May 2009 that
agencies only use incentives when necessary.




7
  The IRS is organized into divisions serving groups of taxpayers. The IRS’s four divisions include the Tax Exempt
and Government Entities, the Large Business and International, the Wage and Investment, and the
Small Business/Self-Employed Divisions.
8
  Amounts for Calendar Year 2005 include only recruitment incentives from May 13 through December 31, 2005.

                                                                                                          Page 3
                    The Administration of Recruitment and Retention Incentives Has
                          Improved, but Additional Actions Should Be Taken



        Figure 1: Total Number of Employees Receiving Recruitment Incentives,
                   and the Total Amounts of Recruitment Incentives
                             (Calendar Years 2005–2010)




Source: IRS HCO. Information in this chart does not include recruitment incentives for IRS Office of Chief Counsel
employees.

Figure 2 shows the number and dollar amount of retention incentives the IRS paid to retain SES
and non-SES employees between Calendar Years 2005 and 2010.9 The amount of retention
incentives averaged from a low of approximately $8,000 in Calendar Year 2005 to a high of
$27,000 in Calendar Year 2010.




9
    Amounts for Calendar Year 2005 include only retention incentives from May 13 through December 31, 2005.

                                                                                                          Page 4
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken



        Figure 2: Total Number of Employees Receiving Retention Incentives
                and the Total Dollar Amounts of Retention Incentives
                            (Calendar Years 2005–2010)




Source: IRS HCO. Information in this chart does not include retention incentives for IRS Office of Chief Counsel
employees.

This review was performed at the IRS National Headquarters in Washington, D.C., in the
IRS HCO Office of Executive Services and the IRS HCO Workforce Progression and
Management Division, Compensation Branch in Atlanta, Georgia, and Independence, Ohio,
during the period October 2010 through May 2011. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                                          Page 5
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken




                                     Results of Review

Since Fiscal Year 2008, IRS management improved their administration of the use of recruitment
and retention incentives to attract employees for hard-to-fill locations and retain employees with
unusually high or unique qualifications. However, procedures were not adequate to ensure that
all Federal and internal guidelines were met. Because IRS HCO management relied on manual
controls and did not always review incentives to ensure compliance with legal requirements until
after the incentives were approved,10 we found that some controls were bypassed or were not
followed for some recruitment and retention incentives. This resulted in some recruitment
and retention incentives not being processed in accordance with IRS guidelines between
January 2006 and February 2010. In some instances, there was insufficient documentation to
support the incentive, which presents a risk that the incentives may not have been justified.
In addition, we determined that the IRS HCO has not identified a method to assess the impact of
the use of incentives on overall workforce planning goals. Further improvements will provide
assurance that the IRS uses recruitment and retention incentives effectively to address difficult
staffing situations through strategic workforce planning and ensure the IRS has the right people,
in the right place, at the right time to achieve its mission.

Improvements Have Been Made to the Administration of Recruitment
and Retention Incentives
IRS management created guidelines to administer the recruitment and retention incentive
program.11 These guidelines were created to provide assurance that incentives comply with legal
requirements and that the incentives are used only when necessary to support mission and
program needs. Over the past several years, the IRS HCO has focused on improving controls for
administering recruitment and retention incentives. The IRS HCO effectively accomplished this
by completing the following:

Recruitment and retention improvements
     •   The IRS Recruitment and Retention Plans were updated on August 25, 2009, in
         response to the request from the Director, Office of Personnel Management.



10
   Requests for recruitment incentives are technically reviewed by the IRS HCO prior to final approval. However,
requests for retention incentives for non-SES employees are technically reviewed by the embedded HCO offices in
the IRS business units.
11
   See Appendix IV for a description of IRS guidelines for recruitment and retention incentives.
                                                                                                         Page 6
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken



         IRS HCO management updated its approval and internal monitoring procedures to
         provide assurance the IRS complied with legal guidelines.12
     •   As part of its Fiscal Year 2008 Corporate Incentive Strategy, the IRS’s Senior Executive
         Team developed a guide for determining amounts to be paid to non-SES employees for
         recruitment and retention incentives. The guide identifies incentive amounts, dependent
         on position and grade level, to help ensure consistent application of incentive amounts
         IRS-wide.
     •   The IRS approval authority for recruitment and
                                                                            IRS management elevated the
         retention incentives for all non-SES employees was               approval authority for incentives
         elevated to the following officials in July 2009:                 higher than required by Federal
                                                                          regulation to ensure the integrity
             o Recruitment Incentives – Commissioner,13                            of the program.
               Deputy Commissioner for Services and
               Enforcement, or Deputy Commissioner for
               Operations Support.
             o Retention Incentives – Division
               Commissioner, Deputy Division
               Commissioner, Chief Officer, Deputy Chief
               Officer, or the equivalent official.
         Federal regulations require that retention incentives must be approved by an official at
         least one level higher than the employee’s supervisor. IRS management elevated the
         approval authority higher than what is required by Federal regulation to ensure the
         integrity of the program is maintained and to ensure efficient and effective use of this
         discretionary authority.
     •   Incentive request forms were revised in January 2010 for requesting and approving
         recruitment incentives and in February 2009 for retention incentives. The new forms
         were designed to make it easier for IRS managers to prepare the forms to ensure
         regulatory requirements are met and help reduce the likelihood of errors.
     •   An annual review of non-SES recruitment and retention incentives was established
         effective January 2010 by the Compensation Branch. This review is not required by
         Federal regulations, but is intended to determine whether all regulatory requirements and
         issues identified in other agency audit reports were met for incentives approved in the
         previous year. The annual review was initiated by the Compensation Branch because,
         although they are responsible for the incentive administration, they are not part of the


12
  5 U.S.C. 5753 and 5754.
13
  The IRS Commissioner only signs if the incentive is being authorized under a variation from Federal guidelines
that is approved by the Office of Personnel Management.
                                                                                                          Page 7
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken



         review and approval process for retention incentives.14 In addition, a customer survey
         was conducted to solicit input from the embedded HCOs on how well the incentive
         process worked. The results of the review were summarized and shared with the
         IRS HCO.

Recruitment improvements
     •   A decision tree and two-step approach were developed for use beginning in Fiscal
         Year 2009 to identify when locations should be designated as hard-to-fill for recruitment
         incentives. The approach was developed to ensure consistent and frugal use of
         recruitment incentives IRS-wide.
     •   A process for completing a technical review of recruitment incentive request forms was
         enhanced in Fiscal Year 2008. The review of incentive requests for individual employees
         is conducted by the IRS HCO to ensure that all statutory, regulatory, and policy
         requirements are met before final approval by the appropriate IRS manager.

Retention improvements
     •   An annual recertification process was established effective January 2010 for all open
         retention incentives to ensure compliance with regulations and help reduce the burden of
         tracking the incentives individually. Prior to this change, each incentive was tracked and
         recertified on the date the incentive was originally signed. The recertification of all
         employees at the same time makes the process easier to manage.

Manual Controls to Administer Recruitment and Retention Incentives
Did Not Always Work As Intended
While the IRS has improved many of its policies and procedures for ensuring incentives comply
with legal requirements and are used only when necessary, many of the controls in these policies
and procedures are manual. Therefore, we found that some of these controls were sometimes
bypassed or not followed. We found that 1) documentation did not always show that retention
incentives were needed to keep employees from leaving the IRS, 2) retention incentives were not
always recertified timely, 3) technical reviews were not always performed to ensure legal
requirements were met prior to approval of incentives, 4) approvals were not always documented
for group recruitment incentives, and 5) retention incentives were not always cancelled when the
reason for the retention incentive no longer applied. Improvement to strengthen controls will
provide IRS management assurance that recruitment and retention incentives are initiated,



14
  The Office of Executive Services has not implemented a similar annual review of all recruitment and retention
incentives for SES employees because they are involved in all case actions prior to approval.
                                                                                                           Page 8
                The Administration of Recruitment and Retention Incentives Has
                      Improved, but Additional Actions Should Be Taken



reviewed, and approved only in circumstances where they are needed, which would prevent a
potential waste of Government funds.

Documentation did not always show that retention incentives were needed to
keep employees from leaving the IRS
Federal regulations require that the IRS document in writing the basis for determining that the
employee would be likely to leave the Federal Government in the absence of a retention
incentive. However, 7 (25.9 percent) of the 27 original incentive requests or recertifications we
reviewed did not contain adequate documentation to justify that employees would likely leave
the IRS in the absence of the incentive.
   •   Four of the seven original retention incentive requests involved SES employees and
       occurred prior to Calendar Year 2008. The request forms did not adequately document
       the employee would likely leave the IRS in the absence of the incentive. Documentation
       generally provided specific reasons for retaining the employee (i.e., employee is
       retirement eligible or in great demand), but did not describe further detail such as recent
       job offers or when the employee would likely leave the service.
   •   Three of the seven requests (one recertification and two original requests) in Calendar
       Years 2009 and 2010 involved non-SES employees. Technical reviews of the incentive
       request forms were conducted by the IRS business units and approved by appropriate
       IRS managers. However, the forms used to request retention incentives did not contain
       adequate documentation to justify that the employees would likely leave the IRS in the
       absence of the incentive.
This occurred because retention incentive approval forms did not require any specific
documentation on why IRS management believed the employee was likely to leave Federal
service. If controls do not require IRS management to evaluate whether an employee is likely to
leave the IRS, the IRS could be spending taxpayer dollars on retention incentives that are not
required to retain IRS employees.
Management Actions: Retention incentives for                       New retention forms require a
SES employees now require approval by the Department of             detailed description of how it
the Treasury. In November 2010, the Department of the              was determined an executive is
Treasury developed new SES forms for requesting retention          likely to leave Federal service.
                                                                   However, nonexecutive forms
incentives to provide increased assurance that all criteria are
                                                                   do not require this description.
met prior to approval. The new form requires a description
of how it was determined that the executive is likely to leave
Federal service in the absence of the incentive, and if the
executive is not eligible to retire, the justification should be
more specific about the executive’s plans or other
employment offers.

                                                                                             Page 9
               The Administration of Recruitment and Retention Incentives Has
                     Improved, but Additional Actions Should Be Taken



Retention incentives were not always recertified timely
IRS procedures require that retention incentives that are not recertified timely must be terminated
within one pay period prior to expiration of the incentive. However, we determined that
3 (11 percent) of 27 retention incentives we reviewed were neither recertified timely nor
terminated within 1 pay period prior to expiration of the incentive.
   •   Two of the three incentives involved SES employees and occurred prior to Calendar
       Year 2008. The incentives were recertified 148 days and 413 days late.
   •   One of the three incentives involved a non-SES employee and occurred in Calendar
       Year 2009. The incentive was 121 days late.
Management Actions: Prior procedures involved sending reminders to the IRS’s business units
when recertification of retention incentives were due, based on the anniversary of the original
incentive. Effective February 2010, IRS HCO management implemented a new process to
recertify all retention incentives annually within the same month. This is intended to simplify
the process and reduce the number of untimely recertification issues. Since the IRS HCO has
taken actions to improve the timeliness of recertification, we are making no additional
recommendations regarding this issue at this time.

Technical reviews were not always performed to ensure legal requirements were
met prior to approval of incentives
IRS guidelines require that technical reviews be
conducted of recruitment and retention incentives before
they are approved by executive management to ensure            Technical reviews should be
                                                              performed prior to approval of
all legal requirements are met. However, we identified       incentives to ensure compliance
two recruitment incentives and four retention incentives         with Federal regulations.
for non-SES employees where the reviews were not
conducted, or not conducted timely.
Technical reviews were not conducted, or not conducted timely, for 2 (14 percent) of the
14 non-SES recruitment incentives reviewed and for 4 (31 percent) of the 13 non-SES retention
incentives reviewed.
   •   One of the two recruitment incentives involved an individual who was approved in
       Calendar Year 2008. The remaining incentive involved a group incentive that was
       approved in Calendar Year 2009. For recruitment incentives, this happened because the
       responsible business units failed to forward the request to the Compensation Branch for
       review, as required.
   •   Two of the four retention incentives were approved in Calendar Year 2009, and the
       remaining two were approved in Calendar Year 2010. For retention incentives, this


                                                                                           Page 10
                     The Administration of Recruitment and Retention Incentives Has
                           Improved, but Additional Actions Should Be Taken



           happened because the responsible business unit failed to forward the request to the
           embedded HCO, as required.
If technical reviews are not performed prior to incentives being approved, the IRS risks
certifying that the incentive fully complies with Federal regulations, when they may not.

Approvals were not always documented for group recruitment incentives
Sound internal control procedures require transactions to be properly recorded to maintain
relevance and value to management in controlling operations and making decisions. All
transactions and other significant events should be clearly documented, and the documentation
should be available for review. However, we identified one group recruitment incentive that was
not properly documented.
*******3(d)******************, in January 2009, approved hiring up to 209 revenue agents
and 21 revenue officers15 in difficult-to-fill locations. IRS HCO Workforce Progression and
Management Division management stated that increased funding became available after the
initial employees were hired. ********************3(d)*****************************
************************************3(d)*************************************
***************3(d)**********************. Additional documentation was not obtained
because procedures do not explicitly state that approval should be obtained if there is a
significant change in a group incentive. According to IRS HCO personnel, a cross-functional
group comprised of representatives from three business units and the IRS HCO provided
oversight for the additional incentives. In addition, monthly reports on hiring progress were
created and regular briefings were made to *******************3(d)********************
********************3(d)*************. However, without a control in place to document
significant changes to group incentives, the IRS risks expenditure of taxpayer funds without
proper approval and employees could receive incentives when it is not warranted.

Retention incentives were not always cancelled when the reason for the retention
incentive no longer applied
Federal regulations require agencies to reduce or terminate a retention incentive whenever
conditions change such that the original determination to pay the retention incentive no longer
applies (e.g., when the agency assigns the employee to a different position that is not within the
terms of the original determination) or when the payment is no longer warranted at the level
originally approved or at all after considering certain factors. However, we identified
1 (7.7 percent) of 13 non-SES employees whose retention incentive was not terminated when the
employee changed positions prior to the expiration of the incentive.



15
     A revenue officer attempts to contact taxpayers and resolve collection matters.
                                                                                             Page 11
               The Administration of Recruitment and Retention Incentives Has
                     Improved, but Additional Actions Should Be Taken



The retention incentive was not terminated as required because the business unit where the
employee worked did not notify the IRS HCO of the need to terminate the incentive when the
change in position occurred. Although the incentive was not terminated timely, the employee
was approved to receive a new retention incentive 66 days after transferring to the new position.
If retention incentives are not terminated when an employee changes positions or when the terms
of the original retention incentive change, the IRS risks spending taxpayer dollars on incentives
that are no longer justified.

Recommendations
The Director, Workforce Progression and Management Division, HCO, should:
Recommendation 1: Revise the non-SES retention incentive request form to require details
of how it is determined that an employee would likely leave the Federal Government in the
absence of the incentive.
       Management’s Response: IRS HCO management agreed with this recommendation
       and plans to revise the non-SES retention incentive request form to capture the basis for
       determining the employee is likely to leave Federal service.
Recommendation 2: Work with the IRS business units to move responsibility for technical
review of all non-SES recruitment and retention incentives to the IRS HCO Workforce
Progression Management Division, Compensation Branch, prior to submission to the appropriate
IRS official for approval.
       Management’s Response: IRS HCO management agreed with this recommendation
       and communicated to all IRS business units that, effective immediately, all incentive
       requests must be forwarded to the HCO, Workforce Progression and Management
       Division, for technical review prior to approval.
Recommendation 3: Improve procedures to ensure that approvals for significant changes to
group recruitment incentives, such as decisions to provide additional incentives or provide
incentives to employees in other locations, are properly documented.
       Management’s Response: IRS HCO management agreed with this recommendation
       and plans to revise IRS policy to require additional written approval for any increase to
       the number of incentives specified in group requests.
Recommendation 4: Remind the business units annually, during the annual review of
retention incentives, of the need to terminate incentives for employees who change positions and
no longer qualify for the incentive.
       Management’s Response: IRS HCO management agreed with this recommendation
       and stated that a new justification explaining the business need to retain the employee is


                                                                                         Page 12
               The Administration of Recruitment and Retention Incentives Has
                     Improved, but Additional Actions Should Be Taken



       now required. Recertification requests without a detailed justification, to include
       succession planning and knowledge transfer efforts, will be terminated.

The Use of Recruitment and Retention Incentives Should Be Fully
Incorporated Into Strategic Workforce Planning
Figures 1 and 2 indicate that IRS management has spent
in excess of $10.7 million since Calendar Year 2005 on          Strategic workforce planning
flexibility incentives to recruit and retain employees.        could be improved by analyzing
                                                                    the use and impact of
IRS HCO management linked the use of recruitment and                     incentives.
retention incentives to the broad IRS Human Capital
Objective to “Make the IRS the Best Place to Work.”
Specific links to the Human Capital Objective include:
   •   Develop and implement a service-wide
       recruitment plan that maximizes hiring to meet
       diversity and mission needs.
   •   Forecast leadership hiring, recruitment, and training needs to increase the agility needed
       to adjust workload priorities.
   •   Identify and adopt innovative retention vehicles.
   •   Develop and implement a plan that clearly communicates retention incentives.
   •   Redesign the incentive processes to reduce burden and improve service to employees.
In addition, IRS HCO management indicated the IRS Corporate Incentive Strategy ensures
consistency in spending across the business units, and the elevation of incentive approval to the
Deputy Commissioner level allows for better oversight and tracking of expenditures.
However, IRS HCO management has not fully incorporated the use of recruitment and retention
incentives into the IRS’s strategic workforce planning because IRS management does not
assess the impact of the use of incentives on their planning goals. In addition, although the
IRS Corporate Incentive Strategy ensures consistency in spending across the business units, it
does not ensure the most critical IRS-wide recruiting and retention needs are met.
Recruitment and retention incentives are important flexibilities provided by Congress to help
agencies recruit good employees and retain employees with unique skills when succession
planning has not been effective in developing staff to fill key roles as needed. However, the use
of retention incentives was not intended to be a replacement for sound succession management.
As of November 2010, 87 IRS employees received retention incentives. Of the 87, Figure 3
shows the number of IRS employees receiving multiple-year retention incentives. For example,
4 employees (2 non-SES and 2 SES) received retention incentives for 6 or more years.



                                                                                             Page 13
                 The Administration of Recruitment and Retention Incentives Has
                       Improved, but Additional Actions Should Be Taken



                    Figure 3: Analysis of Current Employees Receiving
                              Multiyear Retention Incentives
                                  (As of November 2010)

                    2 years          3 years          4 years          5 years         6 or more years
 Non-SES               22                8                3                2                    2
 SES                   39               20                8                3                    2
 Total                 61               28               11                5                    4
Source: IRS HCO.

Although there is no limit on the number of years employees can receive retention incentives, the
Office of Personnel Management is considering adding an additional requirement for
determining whether a retention incentive should be provided to an employee, or whether other
employees identified in the agency succession plan generally possess the competencies required
for the position and could perform at the same level with minimal training, cost, and disruption
of service to the public. In addition, the Government Accountability Office has reported16 that
agencies should establish data and indicators to track program effectiveness in order to determine
whether investment in recruitment and retention incentives, compared to other available human
capital flexibilities such as student loan repayment, is more effective.
IRS management has identified certain occupations and locations where it is difficult to recruit,
but they do not know whether they are paying more than needed for these purposes. Without
analysis to determine the impact of the use of incentives on workforce planning, the IRS risks
using taxpayer funds for incentives without assurance that they are helping the IRS achieve its
hiring of the right people, at the right place, at the right time.

Recommendation
Recommendation 5: The IRS Human Capital Officer should develop a methodology to
assess the impact of the use of recruitment and retention incentives in helping IRS management
meet long-term workforce planning goals. The methodology should include indicators to track
and evaluate the use of recruitment and retention incentives.
         Management’s Response: IRS HCO management agreed with this recommendation
         and plans to develop a methodology to assess the incentive programs to determine the
         value gained by using incentives to meet long-term workforce goals.


16
  Continued Opportunities Exist for FDA and OPM to Improve Oversight of Recruitment, Relocation, and Retention
Incentives (GAO-10-226, dated January 2010). FDA – Food and Drug Administration. OPM – Office of Personnel
Management.
                                                                                                     Page 14
                    The Administration of Recruitment and Retention Incentives Has
                          Improved, but Additional Actions Should Be Taken



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS properly administers
recruitment and retention incentives to hire qualified employees for hard-to-fill positions and
retain employees with unusually high or unique qualifications. To accomplish our objective, we:
I.         Identified the requirements Federal agencies should follow and best practices Federal
           agencies can benefit from in administering recruitment and retention incentives.
           A.       Reviewed the Federal Workforce Flexibility Act of 20041 to identify requirements
                    Federal agencies should use to administer recruitment and retention incentives.
           B.       Reviewed Office of Personnel Management guidance to identify requirements
                    Federal agencies should use to administer recruitment and retention incentives.
           C.       Reviewed IRS HCO management certification (to the Office of Personnel
                    Management or to the Department of the Treasury) that IRS recruiting and
                    retention incentive plans and internal approval and monitoring procedures are
                    consistent with regulations.
II.        Determined whether IRS HCO management developed adequate procedures to
           administer recruitment and retention incentives.
           A.       Through discussions with IRS HCO management, identified the procedures for
                    administering recruitment and retention incentives.
           B.       Reviewed the IRS Recruitment Plan and determined whether it designates
                    officials with authority to review and approve payment of recruitment incentives,
                    categories of employees prohibited from receiving recruitment incentives, criteria
                    for determining that a position is likely to be difficult to fill, requirements for
                    determining the amount of a recruitment incentive, payment methods that may be
                    authorized, and requirements governing service agreements (e.g., length of a
                    service period, conditions for terminating a service agreement).
           C.       Reviewed the IRS Retention Plan and determined whether it designates officials
                    with authority to review and approve payment of retention incentives, categories
                    of employees who are prohibited from receiving retention incentives, criteria for
                    determining that an employee would likely leave Federal service, requirements
                    for determining the amount of a retention incentive, payment methods that may be

1
    Pub. L. No. 108-411, 118 Stat. 2305 (Oct. 30, 2004); 5 U.S.C. §§ 5753 and 5754.
                                                                                               Page 15
               The Administration of Recruitment and Retention Incentives Has
                     Improved, but Additional Actions Should Be Taken



              authorized, and requirements governing service agreements (e.g., length of a
              service period, conditions for terminating a service agreement, conditions for
              terminating a retention incentive payment when no service agreement is required).
       D.     Through discussion with IRS HCO management and review of documentation,
              identified whether policies are in place to ensure laws and regulations are met
              before an incentive is paid to an employee.
       E.     Evaluated whether IRS HCO management developed an adequate methodology to
              administer recruitment and retention incentives by comparing IRS established
              guidelines (in Subobjective II) to requirements and best practices (in
              Subobjective I).
III.   Determined whether requests for employee recruitment and retention incentives were
       properly documented and technically reviewed to ensure compliance with legal and
       regulatory requirements and whether service agreements are identified and terminated
       when necessary.
       A.     Obtained and analyzed recruitment and retention incentives data IRS management
              provided to the Department of the Treasury for Fiscal Years 2005 through 2010.
       B.     Judgmentally selected and reviewed a sample of 18 recruitment incentives
              (14 non-SES [including 3 group incentives] and 4 SES) from a population of
              586 recruitment incentives approved in Calendar Years 2008 through 2010.
              Judgmental sampling techniques were used because projections across the
              population were not intended.
       C.     Judgmentally selected and reviewed a sample of 27 retention incentives
              (13 non-SES that were open as of October 2010 and 14 SES that were open as of
              December 2010) from a population of 79 retention incentives. Our selections
              were based on employees receiving retention incentives over multiple years,
              employees from different business units, and employees receiving their first
              retention incentive in Calendar Year 2010. Judgmental sampling techniques were
              used because projections across the population were not intended.
       D.     Determined whether the IRS HCO measured the impact of its recruitment and
              retention incentives on the overall workforce strategy.
       E.     Determined whether oversight provided by IRS HCO management was adequate
              to ensure that recruiting and retention incentives were used to fill the most critical
              vacancies in the IRS overall, and not just the most critical vacancies within each
              budgeted area.




                                                                                            Page 16
               The Administration of Recruitment and Retention Incentives Has
                     Improved, but Additional Actions Should Be Taken



       F.     Reviewed any trend analyses or work studies (if available) to verify
              IRS HCO management measures the impact on its use of recruitment and
              retention incentives on the overall workforce strategy.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Department of the Treasury policies
and procedures for administering recruitment and retention incentives, and the IRS policies and
procedures for administering recruitment and retention incentives. We evaluated these controls
by comparing IRS procedures to Federal and Department of the Treasury procedures, reviewing
recruitment and retention incentive case files, and interviewing IRS HCO management
associated with the processing of non-SES and SES recruitment and retention incentives.




                                                                                        Page 17
              The Administration of Recruitment and Retention Incentives Has
                    Improved, but Additional Actions Should Be Taken



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Margaret A. Anketell, Senior Auditor
Jeffrey L. Stieritz, Auditor




                                                                                  Page 18
             The Administration of Recruitment and Retention Incentives Has
                   Improved, but Additional Actions Should Be Taken



                                                                    Appendix III

                       Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy IRS Human Capital Officer OS:HC
Director, Workforce Progression and Management Division OS:HC:WPM
Director, Executive Services OS:HC:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                          Page 19
                 The Administration of Recruitment and Retention Incentives Has
                       Improved, but Additional Actions Should Be Taken



                                                                                                Appendix IV

    Recruitment and Retention Incentives Guidelines

The IRS HCO, Workforce Progression and Management Division, Compensation and Leave
Branch (hereafter referred to as Compensation Branch), is responsible for overall program
administration, including policy guidance, annual reviews, and reporting requirements for
recruitment and retention incentives for non-SES employees. The IRS HCO, Office of
Executive Services Division, is responsible for oversight of recruitment and retention incentives
for SES employees. Both offices work with, but do not have authority over, embedded HCOs
within each of the IRS’s business units for the purpose of administering recruitment and
retention incentives. Figure 1 lists the specific guidelines.
            Figure 1: IRS Recruitment and Retention Incentives Guidelines

                                      Recruitment Incentives
 General Requirements   The IRS can authorize payment of a recruitment incentive for a newly appointed
                        employee when the position is likely to be difficult to fill in the absence of the incentive.
                        The business unit must make the determination to provide the incentive before the
                        prospective employee begins work.
                        The employee must sign a written service agreement to complete a specified period of
                        employment with the IRS at the designated duty location. The agreement may not be for
                        less than 6 months or for more than 4 years. Payment may be made in lump-sum before
                        or at the commencement of the service period, in installments through the service period,
                        as a final lump-sum payment upon completion of the service period, or in a combination
                        of these payment methods.
                        The IRS can terminate an agreement based solely on management needs. The IRS must
                        terminate the agreement if the employee is demoted or separated for cause, receives a
                        rating of record of less than “Fully Successful” or equivalent, or fails to fulfill the terms
                        of the agreement.

                  Individual and Group Recruitment Incentives for Non-SES Employees

 Requesting             After determination that the position or location is considered “hard-to-fill,” the
 the Incentive          recruiting (or first-line) manager in the business unit through the embedded HCO
                        prepares the incentive request [Recruitment Incentive Request (For Non-SES
                        Employees) (Form 14118-I) for individuals and Recruitment Incentive Group Request
                        (For Non-SES Positions) (Form 14118-G) for groups] which documents the appropriate
                        criteria for consideration of the recruitment incentive, the eligibility of the employee, and
                        the proposed recruitment incentive amount. All requests for group incentives must be
                        coordinated between business units having like or similar occupations.



                                                                                                           Page 20
                The Administration of Recruitment and Retention Incentives Has
                      Improved, but Additional Actions Should Be Taken



                         Form 14118-I must be signed by the recruiting manager and Form 14118-G must be
                         signed by the embedded Human Capital manager. Afterwards, both Form 14118-I and
                         Form 14118-G must be signed by the Division Commissioner, Deputy Division
                         Commissioner, Chief Officer, Deputy Chief Officer, or equivalent official as a
                         second-level review.
                         The business unit embedded HCO forwards the signed completed Form 14118-I and
                         Form 14118-G to the Compensation Branch.

Review of the            The Compensation Branch completes a technical review of Form 14118-I and
Incentive Request        Form 14118-G to verify that all statutory and regulatory requirements (i.e., eligibility,
                         criteria for consideration, written determination, and amount) are met.
                         Form 14118-I and Form 14118-G are forwarded to the IRS Human Capital Officer for
                         signature to certify that a technical review was completed and is forwarded for approval.

Final Approval for the   Form 14118-I and Form 14118-G must be signed by the IRS Commissioner, Deputy
Incentive                Commissioner for Services and Enforcement, or the Deputy Commissioner for
                         Operations Support.
                         Form 14118-I and Form 14118-G are forwarded to the IRS’s Agency-Wide Shared
                         Services organization where payment is processed.

                                 Recruitment Incentives for SES Employees

Requesting               The request for the incentive is prepared by the managing executive of the business unit
the Incentive            through the use of a recruitment worksheet.

                         The managing executive submits the incentive worksheet to the business unit Head of
                         Office or equivalent (e.g., Division Commissioner, Chief Officer) for review and
                         signature.
Review of the            The request is submitted to the IRS HCO Office of Executive Services for technical
Incentive Request        review to certify that all statutory and regulatory requirements (i.e., eligibility, criteria for
                         consideration, written determination, and amount) are met.
                         The IRS HCO Office of Executive Services forwards the incentive request worksheet to
                         the IRS Human Capital Officer with recommendation of approval or denial of the
                         recruitment incentive.
Final Approval for the   Prior to July 2009, the IRS HCO forwarded the recruitment incentive certification to the
Incentive                appropriate approving official who is generally the Chair, Executive Resources Board.
                         After July 2009, incentives for all SES employees must be forwarded to the Department
                         of the Treasury for approval.




                                                                                                              Page 21
                     The Administration of Recruitment and Retention Incentives Has
                           Improved, but Additional Actions Should Be Taken




                          Recruitment Incentive for Administratively Determined Executives

    The IRS Restructuring and Reform Act of 19981 authorized the Secretary of the Treasury to fill up to 40 critical
    administrative, technical, and professional positions to carry out functions of the IRS. Critical pay plans allow the
    candidate’s salary to be competitive with the private sector. Critical pay compensation is based on the candidate’s
    previous salary history. Critical pay packages can include recruitment incentives based on the candidate’s salary
    history. This authority expires on July 23, 2013.

    Requesting                 The business unit contacts and makes the IRS HCO Office of Executive Services aware
    the Incentive              of the need for the incentive.
                               The Office of Executive Services prepares the compensation package in coordination
                               with the point of contact for the business unit Head (i.e., Executive Staff Assistant to the
                               Division Commissioner). There are no standardized request forms for administratively
                               determined candidates. A memo is prepared for request of the selection and with that
                               will be all compensation information, including any recruitment requests. All
                               information about the recruitment incentive request is also included in the compensation
                               package.
    Review of the              After approval of the position description, the business unit embedded HCO contacts the
    Incentive Request          IRS HCO Office of Executive Services and informs it about a potential candidate for an
                               administratively determined position.
                               The Office of Executive Services prepares the compensation package in coordination
                               with the embedded HCO in the business unit. There are no standardized request forms
                               for administratively determined candidates. All information about the recruitment
                               incentive request is included in the compensation package.
    Final Approval for the     All administratively determined recruitment incentive requests were approved at the
    Incentive                  Department of the Treasury prior to November 25, 2009.
                               The IRS Commissioner became the approving official for administratively determined
                               recruitment incentive requests after November 25, 2009.

                                               Retention Incentives
    General Requirements        A retention incentive may be paid to a current employee, manager, or executive when
                                the IRS determines that the unusually high or unique qualifications of the employee or a
                                special need for the employee’s services make it essential to retain the employee, and the
                                employee would be likely to leave Federal service in the absence of the incentive.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                                 Page 22
                 The Administration of Recruitment and Retention Incentives Has
                       Improved, but Additional Actions Should Be Taken



                          The IRS does not require service agreements for retention incentives when payments are
                          made in biweekly installments, in lieu of a lump sum, at the incentive percentage rate
                          established for the employee, and the incentive rate is generally set at or below the
                          25 percent cap for individual authorizations or the 10 percent cap for a group of
                          employees. When no service agreement is required, an agency must review each
                          determination to pay at least annually to determine whether the conditions that supported
                          the initial request and approval of a retention incentive is still warranted and certify the
                          determination in writing by the approving official.
                          A retention incentive may be reduced or terminated at any time. When a retention
                          incentive is reduced or terminated, the business unit must notify the affected employee
                          in writing at least one full pay period before the reduction or termination is effective.

                                Retention Incentives for Non-SES Employees

Requesting                The employee’s manager recommends payment of a retention incentive through the
the Incentive             second-level manager. The business unit prepares the Retention Incentive Request
                          (For Non-SES Employees) (Form 14063-B), which documents the appropriate criteria
                          for consideration of the retention incentive, supporting factors, and proposed retention
                          incentive amount.
                          The request must be signed by the first-line manager, and then by the business unit’s
                          second-level manager or higher.
Review of the Incentive   The request form is forwarded to the business unit’s embedded HCO for technical
Request                   review to certify that the employee meets the statutory, regulatory, and policy
                          requirements for a retention incentive prior to forwarding to the approving official.
Final Approval for the    The request must be signed by the IRS Division Commissioner, Deputy Division
Incentive                 Commissioner, Chief Officer, Deputy Chief Officer, or equivalent.
                          The approving official must review and approve in writing the retention incentive
                          request before it can be made effective and paid to the employees.
                          The request is forwarded to the IRS’s Agency-Wide Shared Services organization where
                          payment is processed.

                                   Retention Incentives for SES Employees

Requesting the            In Calendar Year 2007 and prior, the IRS business units prepared Retention Incentive
Incentive                 Worksheets, and the Office of Executive Services Division prepared the related
                          memorandum based on information in the Worksheets to document justification for the
                          retention request and proposed incentive amount.
                          In Calendar Year 2008, Retention Incentive Requests (For SES Employees)
                          (Form 14063-A) were used to request retention incentives. The Form 14063-A must be
                          signed by the manager and a second-level review must be performed and signed by the
                          Division Commissioner, Deputy Division Commissioner, Chief Officer, Deputy Chief
                          Officer, or equivalent.
Review of the Incentive   The requests are submitted to the IRS HCO Office of Executive Services Division for
Request                   technical review to certify that the employee meets the statutory, regulatory, and policy
                          requirements for a retention incentive prior to forwarding to the approving official.

                                                                                                           Page 23
                 The Administration of Recruitment and Retention Incentives Has
                       Improved, but Additional Actions Should Be Taken



                            The Office Of Executive Services Division provides recommendations to the
                            IRS Human Capital Officer to reject or approve the requests. The IRS Human Capital
                            Officer must certify through signature that the technical review was completed.
Final Approval for the      Prior to July 2009, the IRS HCO forwarded the request to the Chair, Executive Review
Incentive                   Board, for final approval.
                            After July 2009, the requests were forwarded to the Department of the Treasury for final
                            approval.

                        Annual Recertification of Retention Incentives
The circumstances that supported the initial retention request and approval of a retention incentive must be
reviewed annually. If the retention incentive is to continue, the business unit Head of Office or equivalent official
must certify that the circumstances supporting payment of the retention incentive still exist.
The business unit must establish a process to ensure an annual review and either recertification or termination of
retention incentives is done on a timely basis. The process must include mandatory termination, at least 1 pay
period prior to the 1-year expiration date. Because the IRS does not use service agreements when authorizing a
retention incentive, an employee will continue to receive the incentive biweekly until the incentive is terminated by
management.

       Annual Recertification of Retention Incentives for Non-Senior Executives Prior to January 2010

Each incentive was tracked and recertified on or prior to the anniversary date the incentive was originally signed.
The Compensation Branch sent reminders to the business units of the need to recertify or terminate a retention
incentive within 4-6 weeks from the anniversary date.
The embedded HCO staff prepared a new Form 14063-B and checked the recertification box, performed a technical
review, and the request was required to be signed by either the IRS Division Commissioner, Deputy Division
Commissioner, Chief Officer, Deputy Chief Officer, or equivalent.
Upon approval, a copy of the new recertification was forwarded to the Compensation Branch.

         Annual Recertification of Retention Incentives for Senior Executives, Prior to January 2011

Each incentive was tracked and recertified on the anniversary date the incentive was originally signed. Prior to
Calendar Year 2008, the annual recertification of retention incentives for SES employees was conducted in October
of each year.
The Office of Executive Services sent reminders to the business units of the need to recertify or terminate a
retention incentive within 4-6 weeks from the anniversary date.
Prior to July 2009, the annual recertification of the incentive was approved by the Chair, Executive Review Board.
Between July 2009 and December 2009, the recertification of retention incentives were being worked out based on
the Department of the Treasury’s new guidelines. Procedures were established and then all retentions were put on
an annual recertification date, effective January 2010.




                                                                                                            Page 24
                  The Administration of Recruitment and Retention Incentives Has
                        Improved, but Additional Actions Should Be Taken




           Annual Recertification of Retention Incentives for All Employees, Effective January 2010

 In January 2010, the IRS HCO implemented an annual review and recertification process for all retention incentives
 (SES and non-SES).
 The process includes the preparation of a separate consolidated spreadsheet for non-SES and SES employees.
 Each spreadsheet includes employees who are currently receiving an incentive (name, retention percentage,
 retention amount, effective date). A separate Retention Incentive Annual Recertification Form is prepared for each
 non-SES and SES employee.
Source: IRS guidelines.




                                                                                                         Page 25
   The Administration of Recruitment and Retention Incentives Has
         Improved, but Additional Actions Should Be Taken



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 26
The Administration of Recruitment and Retention Incentives Has
      Improved, but Additional Actions Should Be Taken




                                                        Page 27
The Administration of Recruitment and Retention Incentives Has
      Improved, but Additional Actions Should Be Taken




                                                        Page 28
The Administration of Recruitment and Retention Incentives Has
      Improved, but Additional Actions Should Be Taken




                                                        Page 29
